                                   EVALUATION




 OFFSHORE OIL AND GAS PERMITTING
 U.S. DEPARTMENT OF THE INTERIOR




Report No.: CR-EV-BSEE-0006-2013   September 2014
                OFFICE OF
                INSPECTOR GENERAL
                U.S.DEPARTMENT OF THE INTERIOR

                                                                                  SEP 3 0 2014
Memorandum

To:               Brian Salerno
                  Director, Bureau of Safet\. ~~~:nmental Enforcement

From:             Mary L. Kendal~~
                  Deputy Inspector General

Subject:         Evaluation Report- Offshore Oil and Gas Permitting, U.S. Department of the
                 Interior
                 Report No. CR-EV-BSEE-0006-2013

        This memorandum transmits the findings of our evaluation of the U.S. Department of the
Interior's (DOl) offshore oil and gas permitting program managed by the Bureau of Safety and
Environmental Enforcement (BSEE). This program annually returns more than $5 billion in
royalties to the Federal Government, and its efficient management plays a critical role in
safeguarding this Nation's natural resources while returning significant monies to the Federal
Treasury. We studied the program's effectiveness and efficiency in reviewing and approving
Outer Continental Shelf oil and gas drilling permits.

       We found that BSEE conducts drilling permit activities with limited oversight from its
headquarters office in Washington, DC. This creates policy differences and inconsistencies
among regions, as each region develops its own policies without headquarters review or,
conversely, develops its own procedures in the absence of preexisting headquarters policies. We
found that BSEE-

           •   approves permitting actions without current or updated policies or detailed standard
               operating procedures that could ensure consistency and standardization among
               regions and district offices;
           •   has not effectively or efficiently managed a recent policy that required technical
               training for its engineers, and thus did not ensure that all employees were aware of
               the new requirement; and
           •   has not implemented its electronic permit systems, which was created to reduce
               manual permitting functions, throughout all regions.

        We made nine recommendations to enhance management of the offshore oil and gas
permitting program. Our intent is that these recommendations will help BSEE standardize
policies and procedures among its regions; improve communication concerning newly created
policies; and implement its electronic permit system across all regions to increase transparency
and efficiency.




                                  Office of Inspector General I Washington, DC
       Based on your September 15, 2014 response to our draft report, we removed the
recommendation that BSEE needs to actively manage the engineer training program. We agree
with BSEE that tracking this recommendation would be difficult and in concurring with and
implementing recommendations 7 and 8 BSEE will address the intent of our recommendation.

       We consider recommendations 2, 3, 4, and 6 resolved but not implemented, and
recommendations 5, 8, and 9 resolved but not fully implemented. We will refer these
recommendations to the Office of Policy, Management and Budget to track implementation. We
consider recommendation 7 resolved and implemented. No further action is required for this
recommendation.

        We consider recommendation 1 unresolved and not implemented. BSEE concurred with
this recommendation but requested that the Office of Inspector General revise it so as to
recognize that the Office of Offshore Regulatory Programs is not solely responsible for creating
policy and procedures but rather ensures consistency across BSEE. BSEE responded that since
technical expertise largely resides in BSEE’s regions and districts, policies and procedures are
often created outside of the Office of Offshore Regulatory Programs. We concur with BSEE that
the role of the Office of Offshore Regulatory Programs is to ensure consistency and
standardization throughout BSEE; however, we believe that this office needs to be the sole entity
that updates, creates, and maintains policies and procedures to ensure consistency across BSEE,
rather than fragmenting this process by allowing policies and procedures to be created elsewhere.
Draft policies and procedures created by the districts or regions should be submitted to Office of
Offshore Regulatory Programs for formalization, implementation and dissemination. This
recommendation will be referred to the Assistant Secretary for Policy, Management and Budget
for resolution and to track its implementation.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit, evaluation, and inspection reports issued; actions taken to
implement our recommendations; and recommendations that have not been implemented.

       We appreciate the cooperation and assistance of the BSEE staff during the course of our
evaluation. A response to this report is not required. If you have any questions regarding this
document, please do not hesitate to contact me at 202-208-5745.




                                                2
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 3
   Objective ............................................................................................................. 3
   Background ......................................................................................................... 3

Findings................................................................................................................... 5
   Policies and Procedures ....................................................................................... 5
   Permit Reviews ................................................................................................... 7
   After-Hours Documentation................................................................................ 9
   Departure and Alternate Compliance Documentation ........................................ 9
   Training ............................................................................................................. 12
   eWell Implementation ....................................................................................... 13

Conclusion and Recommendations ....................................................................... 15
   Conclusion......................................................................................................... 15
   Recommendations ............................................................................................. 15

Appendix 1: Scope and Methodology................................................................... 20
   Scope ................................................................................................................. 20
   Methodology ..................................................................................................... 20

Appendix 2: 2010 Recommendations ................................................................... 22

Appendix 3: BSEE Response ............................................................................... 23

Appendix 4: Status of Recommendations ............................................................. 27
Results in Brief
Extensive analysis following the explosion of the Deepwater Horizon oil rig in
2010 provided the Federal Government, States, and private businesses a critical
opportunity to significantly change policies and processes to promote safe and
effective drilling in the waters of the Outer Continental Shelf (OCS). As one of
the Federal entities involved in this review, the U.S. Department of the Interior
(DOI) Office of Inspector General made 64 recommendations to strengthen the
Department’s overall management, regulation, and oversight of OCS operations.
Our evaluation focuses on the seven recommendations intended to improve the
offshore oil and gas permitting process. These recommendations, detailed in our
fiscal year 2010 evaluation of the Bureau of Ocean Energy Management,
Regulation, and Enforcement (BOEMRE; CR-EV-MMS-0015-2010, “A New
Horizon - Looking to the Future of the Bureau of Ocean Energy Management,
Regulation, and Enforcement”), were intended to help safeguard human life,
health, and the environment potentially impacted by offshore drilling for oil and
gas.

Following Federal reorganization of the Minerals Management Service, 1 which
approved the Deepwater Horizon drilling permit, the Bureau of Safety and
Environmental Enforcement (BSEE) commenced operations in 2011 as a separate
bureau. During the past 4 years, four of the seven recommendations we made
have been closed by DOI’s Office of Policy, Management and Budget. The
remaining three recommendations, which are critical to BSEE’s efficient
management of offshore oil and gas permits, are still outstanding.

BSEE has attempted to address these recommendations through the creation of a
permit team. The first team disbanded after not accomplishing its mission,
however, and the second is still unable to accomplish the requirements of its
charter. Although BSEE has made progress in the areas of staffing, permitting
checklist development, and increased collaboration among staff, the most critical
changes still need implementation.

BSEE conducts drilling permit review and approval activities without necessary
oversight and clear direction from its headquarters office, which leaves the
regional and district offices to review and approve permits without consistent
guidance. This is especially important because such permits are being approved at
the district levels without the proper delegation of authority. BSEE also approves
oil and gas permits for drilling without having the necessary policies and
procedures in place to guide and document its decisions. Furthermore, the

1
 Reorganization of the Minerals Management Service in June 2010, following the explosion of the
Deepwater Horizon in the Gulf of Mexico, created the Bureau of Ocean Energy Management, Regulation,
and Enforcement (June 21, 2010, to September 30, 2011). The Bureau was separated into three new
management structures: the Bureau of Ocean Energy Management (BOEM), the Office of Natural Resources
Revenue (ONRR) and the Bureau of Safety and Environmental Enforcement (BSEE) to improve
management, oversight, and accountability. BSEE began operations on October 1, 2011.


                                                                                                   1
permitting employees we interviewed stressed the agency’s need for current
policies and procedures.

In addition to the three recommendations from 2010, we found that BSEE does
not effectively implement its engineer training program. It also has not fully
rolled out eWell, an online database developed and used only in BSEE’s Gulf of
Mexico Region. The database allows industry to submit permits electronically for
approval, but this tool is not available to all BSEE regions.

In this report, we make 9 recommendations that specify actions to help BSEE
manage its permitting activities more effectively.




                                                                               2
Introduction
Objective
The objective of this evaluation is to assess the Bureau of Safety and
Environmental Enforcement’s (BSEE) effectiveness and efficiency in reviewing
and approving oil and gas permits on the Outer Continental Shelf (OCS), as well
as to follow up on the seven permitting recommendations from our 2010 OCS
report. The scope and methodology of our review is included as Appendix 1 and
the 2010 recommendations as Appendix 2.

Background
The U.S. Department of the Interior (DOI) offshore oil and gas program is a
major source of revenue for the Federal government. The program has averaged
$5.870 billion in annual royalties since fiscal year (FY) 2011.

In calendar year 2012, OCS leases located in the waters off California, Alaska,
and the Gulf of Mexico provided approximately 483 million barrels of oil and
1.585 billion cubic feet of natural gas, accounting for almost 20 percent of the
Nation’s oil production and over 6 percent of domestic natural gas production.

The OCS Lands Act, 43 U.S.C. §§ 1331 – 1356a, provides the Secretary of the
Interior the authority to lease and regulate natural resources on the OCS. (See 43
U.S.C. § 1334(a).) 2 On May 19, 2010, Secretarial Order 3299 established the
reorganization of the Mineral Management Service, the regulatory agency that
was then responsible for oversight of OCS activities. Pursuant to 119
Departmental Manual 1, BSEE is responsible for issuing and monitoring OCS oil
and gas permits.

On October 1, 2011, BSEE commenced operations as a separate bureau. BSEE
regulates OCS oil and gas exploration, development, and production operations
pursuant to 30 C.F.R. part 250. Responsible for promoting safety, protecting the
environment, and conserving offshore resources through regulatory oversight and
enforcement, it is tasked with developing standards and regulations to accomplish
its responsibilities efficiently. It also is responsible for carrying out our seven
2010 recommendations, of which three are still outstanding.

In 2013, BSEE received funds to complete its reorganization goals and sustain
important changes made in FYs 2011 and 2012. These included essential reforms
in the management and oversight of offshore drilling:

       •    implementation of a new inspection strategy and new requirements related
            to the approval of drilling permits;
       •    expanded capabilities and resources for reviewing and processing drilling,

2
    See Footnote 1.


                                                                                     3
       production, and decommissioning permits; and
   •   establishment of critical personnel needed to develop, manage, and ensure
       that National Environmental Policy Act (NEPA) process requirements are
       met in BSEE’s three OCS regions so that these regions can responsibly
       issue permits to conduct various offshore activities.

To manage the three OCS regions, BSEE has the following regional offices:

   •   the Gulf of Mexico Region (GOMR);
   •   the Pacific Outer Continental Shelf Region (POCSR); and
   •   Alaska.

The Gulf of Mexico waters off the United States provide the most active drilling
sites. GOMR has five district offices organized under it to manage drilling
permits and applications, as well as other operational requests, to help OCS oil
and gas operators comply with all requirements.

An application for a permit to drill (APD) begins the process. When the permit to
drill is approved by GOMR or either of the other two regions, an operator has
approval to begin the process of drilling a well. Before the permit can be granted,
however, many direct and related approvals, including NEPA compliance, must
be in place. After the April 2010 Deepwater Horizon explosion, GOMR’s permit
approvals declined in 2010 and in 2011 when compared to 2009. Since 2012 the
number of permit approvals has increased above the 2009 level and GOMR has
also taken measures to improve decision making. It has also added more staff to
review permits and created opportunities for greater in-depth analysis of those
permits through the establishment of new checklists.




                                                                                   4
Findings
BSEE plays a critical role in permit processes that should allow for the safe and
efficient development of the Nation’s offshore oil and gas resources while
safeguarding natural resources held in the public trust.
We found that BSEE conducts drilling permit activities with limited oversight
from its headquarters office in Washington, DC. This creates policy
inconsistencies among regions as each region develops its own policies without
headquarters review or develops its own procedures in the absence of preexisting
headquarters policies. We found that BSEE—

       •    has approved permitting actions without current or updated policies or
            detailed standard operating procedures (SOPs) that could ensure
            consistency and standardization among regions and district offices;
       •    has approved permits in GOMR without properly delegating authority;
       •    has not effectively or efficiently managed a recent policy that required
            technical training for its engineers, and thus did not ensure that all
            employees were aware of the new requirement; and
       •    has not implemented its electronic permit system, eWell, which was
            created to reduce manual permitting functions, throughout all regions.

Policies and Procedures
Policies provide a platform for standardization, consistency, and operational
efficiency throughout an organization. Procedures offer more details than policies
and thus provide a step-by-step guide for employees. Both policies and
procedures are necessary tools for BSEE engineers who approve permits.
Together, policies and procedures provide all BSEE employees involved in the
permit approval process with a roadmap for decision making. They ensure that all
engineers consistently review permit applications, document the decision process,
and approve permits.

Recommendation 3 from our 2010 OCS report was for BSEE 3 to develop a
comprehensive, current handbook to compile and standardize permitting policies
and procedures, thereby enabling employees to carry out their responsibilities
consistently. BSEE responded by creating a team to review and improve its
drilling permit review and approval process.

When we reviewed BSEE’s actions toward implementing recommendation 3,
however, we found that the initial permitting team had not developed the policies
and procedures we had recommended. When the team could not finalize its work
plan, it disbanded, and a second team formed to follow up on our


3
    For the sake of consistency, we will refer to the bureau as BSEE throughout this report.




                                                                                               5
recommendation. This new team developed a charter and strategic plan with tasks
and key milestones to be completed between FYs 2013 and 2014.

We interviewed members of this team, who stated that they are expected to
dedicate 25 percent of their time to team functions. The team has yet to meet
regularly, however, or achieve this time requirement. In addition, the team has
initiated but has not completely developed or implemented a formal process to
update its policies and procedures.

When interviewed, BSEE headquarters admitted that its permitting team would
not meet its revised deadlines. This task remains unmet because BSEE does not
have a library of current, accurate, and complete SOPs. A team member stated
that just identifying all SOPs would be a huge accomplishment for BSEE.

Since a formal, integrated process to update policies and procedures remains
incomplete, BSEE regional and district engineers continue to review, document,
and approve permits without the guidance of current, accurate, or complete
Bureauwide policies and procedures on which they can base their decisions. For
example, since June 2011, GOMR has implemented 16 new permit reviews and
incorporated these new reviews into its eWell system. In addition, BSEE has
issued six Notices to Lessee, a process requiring the operator or lessee to provide
additional documentation with the permit application in order for BSEE engineers
to perform these additional reviews. Although we requested updated information
that addressed these newly developed reviews and requirements, BSEE could not
provide any updated internal policies or procedures.

We also learned, during our review, that the Field Operations Guideline Online
Tracking System (FOPOTS), an electronic documents file that allows permitting
employees to comment on new guidelines, is being replaced by another system,
referred to as the Guidance and Policy System (GAPS). Interviewees told us that
FOPOTS is no longer used by BSEE staff due to its inefficiency. Instituting
GAPS became BSEE’s proposed solution to its problems with FOPOTS, but few
employees knew of GAPS because it was never implemented; now GAPS also is
in the process of being replaced.

BSEE notified us in January 2014 that it had developed yet another database,
titled the Catalog and Review System (CARS), which it intended to function as a
central repository for guidance and procedural documents. BSEE also plans to
implement another system, referred to as the Data Tracking System (DTS), to
compile, create, and update policies and procedures before adding them to CARS.
BSEE planned to go live with CARS on May 1, 2014, but has yet to do so; this
database is still in the test phase, a situation that has created issues with the
following permitting activities:

   •   permit reviews;
   •   after-hours tracking, reconciling, and documentation; and


                                                                                  6
    •   departure and alternate compliance approval and documentation.

Permit Reviews
Although BSEE has created checklists and reviews to improve the permit review
process, it has not developed a policy that requires employees to use them, nor has
it developed procedures to implement them. Without these policies and
procedures in place, BSEE cannot promote standardization and consistency in the
review process. During its review in February 2013, the ePermits team noted that
the evaluation of most permits was not well documented. Further, GOMR senior
engineers (GS-13s) and section chiefs approve permits without having proper
delegation of authority. According to 30 C.F.R. § 250.40, written approval from
the district manager must be obtained before drilling a well.

We found that when a permit is generated not all employees in the approval chain
create the appropriate checklist or review, which accompanies an approved permit
to show that all necessary evaluative steps have been documented and completed.
When we examined permits in GOMR’s eWell system, for example, we found
that reviews had not always been completed or documented. The APD
completeness checks review and the district drilling engineering review, two
checklists used to document an engineer’s permit review, were not generated for
every permit that had been approved. Even those generated to accompany the
approved permit had not always been completed (see Figure 2).

                                                   APD                District Drilling
              Review Status                    Completeness            Engineering
                                               Checks Review              Review
        Generated and completed                         7                      7
     Generated and partially completed                  6                      8
        Generated and not completed                     7                      9
              Not generated                             6                      2
             Total Reviewed                            26                     26

Figure 2. Results of sampled permits, showing less than one third with completed checklists.

The sample consisted of permits that were approved after the APD completeness
checks review and the district drilling engineer’s review had been incorporated in
the eWell system as of June 2011. For the 26 new well permits we reviewed, both
of these reviews were completed only 7 times. Some GOMR engineers told us
that they completed their checklists outside the eWell system and saved them
either on their shared network drive or in the Technical Information Management
System (TIMS) database, a computerized information system that automates
many of the business and regulatory functions supporting BSEE and the Bureau
of Ocean Energy Management (BOEM). Further, we found that the eWell system




                                                                                           7
does not have controls, referred to as business rules in that system, requiring all
applicable checklists to be completed before a permit is approved.

Since only GOMR employees have access to eWell, employees in other regions
create workarounds to help them accomplish their reviews. Alaska engineers
stated that they use a Microsoft Excel version of the district drilling engineering
review checklist. They do not, however, include this checklist as part of the
approved permit file. They stated that once the permit is approved, the checklist is
destroyed or kept on their work computers.

GOMR managed the district drilling engineering review checklist prior to its
implementation into eWell in June 2011. POCSR engineers stated that they did
not receive the district drilling engineering review checklist until just before we
visited that region in December 2013. POCSR also uses an Excel version of the
checklist and requires its engineers to attach the completed checklist to the APD
for approval. Once the permit is approved, the checklist is included in the
approved permit file. Our sample of eight approved new well permits included
two permits approved after POCSR received the checklist. We found the checklist
attached to both permits.

Alaska and POCSR must manually enter their approved permit information into
TIMS, whereas this data entry occurs electronically in GOMR because eWell is
integrated with TIMS in that region. Neither Alaska nor POCSR use the APD
completeness checks review, which is integrated into eWell.

Since permit reviews are not consistently documented either manually or
electronically, we found it difficult to determine what an engineer had
reviewed as part of the permit approval process. This perpetuates a program-
wide absence of consistency and standardization. It also may leave the
Government less capable of explaining why permits were issued or other
actions taken.

We interviewed 31 senior engineers and upper management and found that
14 senior engineers and 5 section chiefs in GOMR approve permits without
proper delegation of authority. Several GOMR managers stated that the
delegation of authority was changed to allow senior engineers (GS-13s) to
sign and approve permits. The interim revision dated February 9, 2011, that
had been intended to change the delegation of authority in 30 C.F.R. part 250
was never finalized. Although these senior engineers and section chiefs have
sufficient knowledge and experience to assume the duties and responsibilities
associated with the district manager’s position, they were never delegated
approval authority.




                                                                                      8
After-Hours Documentation
A primary difference between an APD and an application for a permit to modify
(APM) is that APD review and approval occurs before drilling operations begin,
while an APM can be submitted throughout the lifecycle of the well when an
operator may need to modify drilling operations. According to 30 C.F.R. §
250.465 (a)(1), an operator has to submit an APM or request oral approval if
revising the company’s drilling plan becomes necessary. In addition, an APM
must be submitted no later than the end of the third business day after the oral
approval is received.

The around-the-clock, shift-based production operations of the oil and gas
industry create many situations requiring submission of APMs to BSEE staff long
after their regular working hours have ended. In an effort to accommodate the
industry’s continuous operations, BSEE district offices require a qualified
engineer who can approve permits to be available at all times to respond to
industry requests.

District offices in GOMR maintain after-hours coverage by requiring engineers to
be on call on a rotational basis. Most district offices handle such calls by rotating
this responsibility among GS-13 senior engineers. BSEE has provided these
engineers with cell phones for after-hours or weekend use so that they can
respond to operators who are required to notify the district office of any proposed
revision to an approved operation. POCSR’s procedure for after-hours calls
involves a 24-hour answering service that connects operators with an approving
engineer.

We found, however, that BSEE inconsistently documents, tracks, and follows up
on after-hours calls and after-hours approvals that lead to permit modifications. It
does not have a standard form that staff can use to document these after-hours
calls and approvals. It also does not have a policy or procedure to verify that after-
hours approval has been given for permit modifications. Inconsistencies
associated with after-hours approval documentation run the risk of creating
situations where, for example, an operator is not compliant with the regulation
that requires a permit for all offshore activity.

Departure and Alternate Compliance
Documentation
A departure is defined by 30 C.F.R. § 250.105 as an approval granted by the
appropriate BSEE or BOEM representative for operating procedures other than
those already specified in the regulations. Approval for a departure allows an
operator to conduct necessary procedures to control a well, properly develop a
lease, conserve natural resources, or carry out related activities. Also, 30 C.F.R. §
250.414(h) requires operators to justify why they are requesting a departure from
the regulations.




                                                                                    9
Policies and procedures assist in evaluating whether an approval was appropriate
and ensure that engineers use criteria that encourage consistent decision making
when they give approval for departures. When engineers are clear and consistent,
this helps operators know what is acceptable and what is not. Policies and
procedures promote standardization and consistency.

Our 2010 OCS report covered this issue in Recommendations 6 and 7, which
proposed, respectively, that BSEE develop procedures for reviewing departure
requests and for reevaluating routinely granted departures. BOEMRE’s response,
dated March 2011, acknowledged that its permitting team was developing
procedures to improve the review of departure requests and that it would be
evaluating “previously granted departures to ensure they can be justified
according to the criteria for departures.” As of May 2014, these recommendations
still had not been resolved.

BSEE established a process for approving departures after the 2010 report. It
created the district operations support (DOS) group, which is tasked with the
review and approval of departures. DOS found in its review of previously
approved departures that some of those approved in 2010 were not actually
departures but what they termed “alternate compliance.”

During our evaluation, we found that engineers could not agree on a consistent
definition of departures or alternate compliance. Some explained that BSEE was
moving away from using the term “departures” and replacing it with “alternate
compliance.” Some engineers stated the terms to be the same, while others
defined each term differently. One commented that “alternate compliance” is
more “politically correct.” The inconsistent definitions offered by the engineers
further demonstrates the need for standardization with the use of current, accurate,
and complete policies and procedures.

On April 4, 2012, GOMR issued policy decisions identifying certain approved
departures, but this policy did not include reviewing and approving all other
departures or alternate compliances. Alaska also issued its own policy on
departures on April 16, 2013. We found that GOMR and Alaska policy decisions
were issued from the regions as opposed to BSEE’s headquarters Office of
Offshore Regulatory Programs, which manages rules, standards, and compliance
programs governing OCS oil, gas, and mineral operations, as well as regulations
and associated policy documents.

The eWell system has the potential to provide consistent review, approval, and
tracking of departures. Currently, eWell contains common departures that BSEE
has granted; however, it does not include all departures. Also, it is not consistently
used and does not clarify the differences between a departure and an alternate
compliance. In addition, we found that some engineers use the eWell departure
function while others use the permit’s conditions of approval section, which lays
out the requirements that must be met if the permit is to be approved. This



                                                                                   10
inconsistent approach makes it almost impossible to track departure approvals
given outside of eWell. We could not evaluate use of the departure tracking
mechanism in eWell for Alaska and POCSR because they do not have access to
the eWell system.

In its response to our Notice of Potential Findings and Recommendations (NPFR),
BSEE management said that it recognized the need to develop and maintain
formal, up-to-date policies and procedures. BSEE also said that it has developed
SOPs, has issued many policies and guidelines, and strives to promote
standardization, consistency, and operational efficiency. BSEE recognized,
however, that it does not have a fully structured and formalized process. It plans
to develop additional SOPs during its next review cycle, although it did not
identify when that cycle would occur.

 Recommendations

 We recommend that BSEE:

 1. Update, create, and maintain offshore permitting policies and procedures
    within the Office of Offshore Regulatory Programs to assist engineers in
    carrying out their responsibilities for permit reviews. At a minimum, these
    policies and procedures should address—

            •   required permit reviews, such as the APD completeness checks
                review and the district drilling engineering review;
            •   documentation for permit reviews (how they are to be
                completed and maintained);
            •   after-hours calls documentation and reconciliation; and
            •   review, approval, and tracking of both departures and alternate
                compliances.

 2. Create a business rule in eWell that will not allow a permit to be approved
    without the required reviews being completed.

 3. Implement the proper delegation of authority for senior engineers (GS-
    13s) and section chiefs to approve permits in accordance with 30 C.F.R.
    part 250.

 4. Develop a strategy so that CARS includes all offshore permitting policies
    and procedures.

 5. Train BSEE employees to use CARS and DTS to ensure permitting policies
    and procedures are communicated to the employees using them.




                                                                                11
 Recommendation

 We recommend that BSEE:

 6. Implement a quality assurance process for permitting activities to ensure
    consistency throughout BSEE.



Training
On January 7, 2013, BSEE issued Interim Policy Document (IPD) 2013-03, titled
“Training Requirements for Engineers.” The policy, which became effective on
March 8, 2013, requires all engineers to complete at least 32 hours of approved
technical training annually. It also requires newly hired engineers with less than 3
years of oil and gas engineering experience to complete BSEE’s engineering boot
camp or an equivalent program.

Our interviews of well operations engineers disclosed that the IPD training
requirements have not been effectively communicated. We were told that external
technical training had to be approved by the training branch coordinator in order
for it to apply to the 32-hour requirement. We found that not all engineers,
including section chiefs, knew about the IPD training requirements for engineers.
This increases the likelihood that engineers will fail to meet IPD requirements.

We reviewed training records, including transcripts from DOI Learn, a database
that tracks training for DOI bureaus, and individual training certificates. We
found that—

   •   not all training was captured in DOI Learn;
   •   no training hours were captured in DOI Learn; and
   •   not all certificates that we received included training hours.

BSEE also did not provide an SOP explaining how to implement the IPD. We
were told that training hours were updated in several locations, such as weekly
training lists, a BSEE-maintained spreadsheet, and DOI Learn rosters. This ad hoc
approach to tracking training hours made it difficult to determine who met the
training requirements. We received lists showing which BSEE engineers did not
meet the training requirements. We noted, however, that some engineers on that
list had provided us with documentation supporting their technical training.

In response to our NPFR, BSEE stated that once IPD 2013-03 had been approved,
it went out to headquarters and program offices, notifying engineers that they
needed to fulfill its requirements. BSEE also posted the IPD to its Intranet site,
both for reference and to download.




                                                                                  12
BSEE also stated in its response that it suspects that the IPD may have been
ineffectively communicated in some parts of the Bureau. After we inquired about
training requirements, BSEE initiated a mandatory “Online Training Awareness”
program that all engineers must take within 30 days from the date the awareness
training became available. The course will be part of the DOI Learn curriculum,
and engineers will be asked to answer questions related to technical training
requirements as well as the Learning Management System, which is DOI Learn’s
web-based reporting and tracking application.

Following BSEE’s response to OIG’s draft report, OIG removed its
recommendation that BSEE needs to actively manage the engineer training
program. We agree with BSEE that tracking this recommendation would be
difficult, and we believe that in concurring with and implementing
recommendations 7 and 8 BSEE will address the intent of our recommendation.

 Recommendations

 We recommend that BSEE:

 7. Document that all permitting employees are aware of all IPD
    requirements; and

 8. Monitor and track all training to ensure that training requirements,
    including training hours, are met and that all training is recorded.



eWell Implementation
In 2004, GOMR began using eWell, an electronic system developed in that
region, to complete its permit reviews. This system, which has been implemented
only in GOMR, allows companies to securely submit their oil and gas permit
applications and reports online. BSEE publicized that the system has many
benefits for both the Government and industry, including—

    •   reducing time needed to permit well operations;
    •   reducing data reporting redundancy;
    •   providing for easier reporting and retrieval of well data;
    •   providing for better quality data with data validation and business rules;
    •   providing for improved communication with BSEE; and
    •   allowing operators to view the status of a permit, thus improving
        transparency.

Although the benefits of the database suggest that BSEE headquarters would be
interested in standardizing the use of eWell throughout its regions, at the time of
our evaluation, Alaska and POCSR did not have access to the eWell system.



                                                                                     13
We found that GOMR is developing ePermits, which is an update to its existing
eWell system. We question how BSEE can support GOMR in rolling out a new
system without ever having fully implemented the current eWell system in all
regions.

 Recommendation

 We recommend that BSEE:

 9. Implement eWell, as well as the updated system, ePermits, throughout its
    regions.




                                                                                14
Conclusion and Recommendations
Conclusion
BSEE’s oversight of OCS oil and gas production is critical to the safe, efficient
extraction of these important natural resources. BSEE has put permitting steps in
place that help oil and gas operators meet their deadlines and has implemented
most of the recommendations in our 2010 OCS report to continue to improve the
permitting process. We found, however, that BSEE has not completed many of
the significant internal steps that would give its employees the tools to perform
their jobs more consistently and effectively.
Because BSEE headquarters does not provide clear direction and standards for
regions and district offices by establishing consistent policies and procedures,
employees either develop their own or work without any Bureauwide guidance.
Similarly, without oversight and tracking from headquarters, current training
policies are not always understood or applied. In addition, the absence of
oversight or direction from BSEE at the headquarters level leads each region to
operate in isolation, without the benefits of a shared permit review technology.
BSEE has made progress in the short years of its existence. Now it needs to
integrate its achievements throughout its organization so that all employees have
the tools to efficiently and consistently conduct the important work BSEE was
created to do.

Recommendations
We recommend that BSEE:

   1. Update, create, and maintain offshore permitting policies and procedures
      within the Office of Offshore Regulatory Programs to assist engineers in
      carrying out their responsibilities for permit reviews. At a minimum, these
      policies and procedures should address—

       •   required permit reviews, such as the APD completeness checks review
           and the district drilling engineering review;
       •   documentation for permit reviews (how they are to be completed and
           maintained);
       •   after-hours calls documentation and reconciliation; and
       •   review, approval, and tracking of both departures and alternate
           compliances.

       BSEE Response: BSEE concurred with this recommendation but
       requested that OIG revise it so as to recognize that the Office of Offshore
       Regulatory Programs is not solely responsible for creating policy and
       procedures but rather ensures consistency across the Bureau. BSEE
       responded that since technical expertise largely resides in BSEE’s regions



                                                                                   15
   and districts, policies and procedures are often created outside of the
   Office of Offshore Regulatory Programs. In addition, BSEE cited planned
   actions pertinent to this recommendation and indicated that it is updating
   permitting policies and procedures in conjunction with efforts to close two
   OIG New Horizon report recommendations.

   Office of Inspector General’s (OIG) Reply: We consider this
   recommendation unresolved and not implemented. OIG concurs with
   BSEE that the role of the Office of Offshore Regulatory Programs is to
   ensure consistency and standardization throughout the Bureau. OIG
   continues to note that this office needs to be the sole entity that updates,
   creates, and maintains policies and procedures to ensure consistency
   across BSEE, rather than fragmenting this process by allowing policies
   and procedures to be created elsewhere. Draft policies and procedures
   created by the districts should be submitted to Office of Offshore
   Regulatory Programs for formalization, implementation and
   dissemination. This recommendation will be referred to the Assistant
   Secretary for Policy, Management and Budget for resolution and to track
   its implementation.

2. Create a business rule in eWell that will not allow a permit to be approved
   without the required reviews being completed.

   BSEE Response: BSEE will update a business rule in eWell that will not
   allow a permit to be approved without the required reviews being
   completed.

   OIG Reply: Based on BSEE’s response, OIG considers this
   recommendation resolved but not implemented. This recommendation will
   be referred to the Assistant Secretary for Policy, Management and Budget
   to track its implementation.

3. Implement the proper delegation of authority for senior engineers (GS-
   13s) and section chiefs to approve permits in accordance with 30 C.F.R.
   part 250.

   BSEE Response: BSEE regions have prepared delegations of authority
   for BSEE headquarters review and approval. Following this approval,
   BSEE’s Human Resources Office will verify that the delegations of
   authority are included in the position descriptions of affected employees.

   OIG Reply: Based on BSEE’s response, OIG considers this
   recommendation resolved but not implemented. This recommendation will
   be referred to the Assistant Secretary for Policy, Management and Budget
   to track its implementation.




                                                                              16
4. Develop a strategy so that CARS includes all offshore permitting policies
   and procedures.

   BSEE Response: BSEE concurs with this recommendation, but indicates
   that, given the impending conclusion of fiscal year 2014, as well as the
   recent approval of a 1-year extension for New Horizon recommendation 3,
   BSEE requests the target date for this recommendation be changed to
   fiscal year 2015. BSEE notes that it is changing its current approach to
   reviewing and updating policies to one that is more robust and
   comprehensive. While CARS will be used to support permit reviews in
   day-to-day operations, solutions for long-term storage of all BSEE records
   are still being developed.

   OIG Reply: Based on BSEE’s response, OIG amended the
   recommendation and considers this recommendation resolved but not
   implemented. The recommendation will be referred to the Assistant
   Secretary for Policy, Management and Budget to track its implementation.

5. Train BSEE employees to use CARS and DTS to ensure permitting
   policies and procedures are communicated to the employees using them.

   BSEE Response: Significant DTS training has been provided to
   headquarters, regional, and district offices. During FY2014, the Office of
   Policy and Analysis conducted 30 DTS training classes for BSEE staff and
   worked with DOI to establish an introductory DTS course in DOI Learn.
   Regarding CARS, the in-house developer has provided hands-on training
   to BSEE staff involved in the permitting process. CARS training has been
   supplemented, with a CARS user guide disseminated to staff. Web-based
   training is scheduled for fiscal year 2015.

   OIG Reply: OIG commends BSEE for their timely implementation of
   DTS training and the publication of the CARS user guide. Based on
   BSEE’s response, OIG considers this recommendation resolved but not
   fully implemented. The recommendation will be referred to the Assistant
   Secretary for Policy, Management and Budget to track its implementation.

6. Implement a quality assurance process for permitting activities to ensure
   consistency throughout BSEE.

   BSEE Response: BSEE concurs with this recommendation. BSEE will
   conduct an internal performance evaluation to assess the quality and
   effectiveness of the permitting program and to ensure Bureauwide
   consistency. The internal performance evaluation will review permitting
   activities throughout the regions and districts, conduct a gap analysis,
   make recommendations to address deficiencies and findings, require
   corrective action plans (CAPs), assign responsible officials for



                                                                              17
   implementing CAPs, and include a follow-up process with assigned
   officials to endure key actions and target dates are met. This will also
   include a planned Enterprise Risk Management system.

   OIG Reply: Based on BSEE’s response, OIG considers this
   recommendation resolved but not implemented. This recommendation will
   be referred to the Assistant Secretary for Policy, Management and Budget
   to track its implementation.

7. Document that all permitting employees are aware of all IPD
   requirements.

   BSEE Response: BSEE believes this recommendation has been
   implemented. In April 2014, BSEE finalized a mandatory online training
   awareness module, which is required training for all BSEE engineers
   when they report for duty. The course is part of the DOI Learn curriculum;
   engineers are required to answer questions related to technical training
   requirements and the learning management system, which is the web-
   based reporting and tracking application for DOI Learn. Upon completion,
   the course is recorded in each engineer’s transcript for tracking purposes.

   OIG Reply: OIG commends BSEE for its timely implementation of this
   recommendation. Based on BSEE’s response, OIG considers this
   recommendation resolved and implemented. No further action is needed.

8. Monitor and track all training to ensure that training requirements,
   including training hours, are met and that all training is recorded.

   BSEE Response: BSEE is mandating that all technical training be
   approved through use of DOI Learn’s standard training form. By August
   29, 2014, more than 94 percent of BSEE engineers had completed their
   fiscal year 2014 training requirements. By January 1, 2015, BSEE will
   ensure that all technical courses offered in FY15 will have the training
   hours listed on the engineer’s transcript, as well as the class completion
   certificate.

   OIG Reply: Based on BSEE’s response, OIG considers this
   recommendation resolved but not fully implemented. This
   recommendation will be referred to the Assistant Secretary for Policy,
   Management and Budget to track its implementation.

9. Implement eWell, as well as the updated system, ePermits, throughout its
   regions.

   BSEE Response: The eWell application was expanded for use in POCSR
   in April 2014. To date, POCSR has successfully processed 8 APMs from



                                                                              18
ExxonMobil in eWell and is working with GOMR subject matter experts
to process APDs. BSEE indicates that the Alaska Region will implement
eWell when production operations warrant it.

OIG Reply: Based on BSEE’s response, OIG considers this
recommendation resolved but not fully implemented. This
recommendation will be referred to the Assistant Secretary for Policy,
Management and Budget to track its implementation.




                                                                         19
Appendix 1: Scope and Methodology
Scope
Our evaluation focused on the Bureau of Safety and Environmental
Enforcement’s (BSEE) review and approval of oil and gas permits on the Outer
Continental Shelf (OCS), as well as following up on the seven permitting
recommendations we made in our fiscal year (FY) 2010 evaluation of Bureau of
Ocean Energy Management, Regulation and Enforcement (Report No. CR-EV-
MMS-0015-2010).

We conducted this evaluation in accordance with the Quality Standards for
Inspection and Evaluation as put forth by the Council of Inspectors General on
Integrity and Efficiency. We believe that the work we performed provides a
reasonable basis for our conclusions and recommendations.

Methodology
We performed this evaluation from June 2013 to April 2014. We conducted 101
interviews and met with personnel from 28 different offices. We observed the
day-to-day activities of 33 personnel from 7 different office locations. We also
reviewed more than 100 permit files, as well as training records for 38 engineers.

In addition, we reviewed laws, regulations, available policies, and procedures
related to the applications for permits to drill (APD) process; interviewed
departmental and bureau officials having oil and gas program and APD process
responsibilities; and observed the permitting process.

We also followed up on the seven permitting recommendations in the FY 2010
evaluation.

We reviewed computer-generated data for approved permits in the Gulf of
Mexico and hard copy data from the Pacific and Alaska regions. We also
reviewed computer-generated and hard-copy training records of all engineers
associated with the permitting process.

We conducted extensive fieldwork in and/or interviewed employees from the
following BOEM offices:

   •   Leasing and Plans, New Orleans, LA;
   •   Office of Environment, New Orleans, LA;
   •   Office of Regional Director, New Orleans, LA;
   •   Office of Strategic Resources, New Orleans, LA; and
   •   Operations Review Unit, New Orleans, LA.

We also conducted fieldwork in and/or interviewed employees from these BSEE
offices:


                                                                                 20
•   Alaska Regional Field Operations, Anchorage, AK;
•   Environmental Enforcement Division, Washington, DC;
•   Gulf of Mexico Region (GOMR) District Field Operations, New Orleans,
    LA;
•   GOMR Houma District Office, Houma, LA;
•   GOMR Lafayette District Office, Lafayette, LA;
•   GOMR Lake Charles District Office, Lake Charles, LA;
•   GOMR Lake Jackson District Office, Lake Jackson, TX;
•   GOMR New Orleans District Office, New Orleans, LA;
•   GOMR Production and Development, New Orleans, LA;
•   GOMR Regional Field Operations, New Orleans, LA;
•   Human Resources, Herndon, VA;
•   Office of Information Technology Services, New Orleans, LA;
•   Office of Offshore Regulatory Programs, Regulations, and Standards,
    Herndon, VA;
•   Office of Policy and Analysis;
•   Office of Regional Director, New Orleans, LA;
•   Office of Regional Environmental Enforcement, New Orleans, LA;
•   Office of the Deputy Director, Washington, DC;
•   Offshore Training Program, Herndon, VA;
•   Pacific Inspection Unit, Camarillo, CA;
•   Pacific OCS Regional Office, Camarillo, CA;
•   Pacific Production and Development, Camarillo, CA;
•   Pacific Regional Field Operations, Camarillo, CA; and
•   Oil Spill Response Division, New Orleans, LA.




                                                                      21
Appendix 2: 2010 Recommendations
In 2010, we made the following recommendations:

   1. Review permit staffing needs in the Gulf of Mexico district and regional
      offices to ensure that staffing levels and breadth of expertise are
      commensurate with increasing workloads.
   2. Develop a succession plan for BOEMRE staff in all regions.
   3. Develop a comprehensive and current handbook to compile and
      standardize policies and practices designed to assist permit reviewers in
      carrying out their responsibilities.
   4. Review and revise the permit review protocols to ensure that (a) permit
      requests from operators and district responses are documented promptly
      and properly; (b) BOEMRE engineers have appropriate access to permit
      databases after hours; and (c) procedures are established that prevent
      “engineer shopping” by operators.
   5. Reexamine after-hours permit review services, the means by which any
      such services should be provided (e.g., on-call, permanent staff), and the
      feasibility of limiting its use by requiring operators to submit
      nonemergency requests and requests that could be reasonably anticipated
      during normal business hours.
   6. Develop procedures for reviewing departure requests that would
      standardize the process and ensure operators justify the requests based on
      concerns for well control; properly developing a lease; conserving natural
      resources; or protecting life, property, or the marine, coastal, or human
      environment.
   7. Reevaluate departures previously or routinely granted to ensure that they
      can be justified according to the criteria for departures.

BSEE extended the implementation target dates for Recommendations 3 and 6
from December 31, 2011 to December 31, 2013. It also extended the
implementation target date for Recommendation 7 from June 30, 2012 to
December 31, 2013. Recommendations 3, 6, and 7 have yet to be fully
implemented.




                                                                              22
Appendix 3: BSEE Response
BSEE’s memorandum responding to our draft report follows on page 24. The
Bureau’s specific comments made in response to our recommendations are
summarized in the conclusion and recommendations summary section of our
report, beginning on page 15. Therefore, the attachments to BSEE’s response are
not included in this report.




                                                                              23
                United States Department of the Interior
              BUREA U OF SAFETY AND ENVIRONMENTAL ENFORC EMENT
                                 WASHING TON , DC 20240-0001



                                                  SEP 15 2014

To:



Through:


From:
               Director

Subject:       Response to Draft Evaluation Report - Offshore Oil and Gas Permitting Report
               No. CR-EV-BSEE-0006-2013

Thank you for the opportunity to review and comment on the Office of Inspector General's
(OIG) evaluation of the Department of the Interior's (Interior) offshore oil and gas permitting
program managed by the Bureau of Safety and Environmental Enforcement (BSEE). BSEE
generally agrees with the spirit and intent of the recommendations in the report and the general
finding that further opportunities exist to improve BSEE's efficiency and effectiveness and
ensure consistency across all organizational units. However, we believe there are a number of
issues that need to be corrected in the report in order to provide a more complete overview of
BSEE' s permitting activities and to offer recommendations that align with the findings to
effectively address the issues identified.

The draft report does not discuss many of the actions taken by BSEE or recognize the progress
made by BSEE employees to improve operations and address previous audit recommendations.
These actions were largely guided by BSEE's Strategic Plan for FY2012-FY2015, which
outlined key strategies and actions that will enable BSEE to become a more effective steward of
America's offshore oil and gas resources.

Numerous oversight internal and external investigations were conducted regarding BSEE and
predecessor agencies after the Deepwater Horizon tragedy. Additionally, the Government
Accountability Office (GAO) identified challenges in Interior's management of oil and gas on
leased Federal lands and waters; specifically, Interior (1) does not have reasonable assurance that
it is collecting its share of revenue from oil and gas produced on Federal lands and (2) continues
to experience problems in hiring, training and retaining sufficient staff to provide oversight and
management of oil and gas operations on Federal lands and waters. As a result, the GAO
concluded that management of Federal oil and gas resources is a high-risk area and added it to
the High Risk List in 2011.

The numerous oversight investigations undertaken after the Deepwater Horizon tragedy resulted
in 233 external recommendations by oversight organizations other than GAO and OIG from



                                                                                               24
fiscal year (FY) 2010 through 2014, of which, 162 have been implemented by BSEE. Examples
ofthese oversight organizations are the National Oil Spill Commission and the National
Academy of Engineering.

In addition to these external oversight recommendations, the OIG and GAO made 86 audit
recommendations during the same time fi·ame, 68 of which have been addressed and closed by
BSEE and its predecessor agencies. While BSEE largely agreed with the external, OIG, and
GAO recommendations, properly addressing all 319 recommendations within a 4 year period
has been a significant challenge, particularly considering that a significant number of
recommendations targeted district operations-which placed a substantial burden of
development and implementation on the same small group of subject matter experts.

The challenge of addressing all 319 recommendations has been compounded by the
reorganizations ofthe Minerals Management Service and the Bureau of Ocean Energy
Management, Regulations and Enforcement that eventually led to BSEE, as well as a currently
robust oil and gas industry (both offshore and onshore) that has driven up salaries offered by
industry. As a result, the attrition rate for mission-critical inspectors and engineers in BSEE has
increased significantly. Efforts to improve standardization and consistency across units- a
common theme in many of the recommendations - have been further complicated by variability
in the volume of current and planned operations, the maturity of operations, the type of
technology used by operators, workforce conditions, and local political climate across all regions
within BSEE.

The draft report portrays BSEE as a static agency that has made little to no progress despite
considerable oversight. Since its formation in FY2012, BSEE has closed 42 OIG and GAO audit
recommendations, meeting or exceeding Interior' s 85% closure goal for FY2012 and FY2013.
BSEE plans to close additional audit recommendations by the end ofFY2014 and will maintain
this focus in the out years. Additionally, noted above, a significant number of external
recommendations have been addressed by BSEE. BSEE plans to close many of the remaining
recommendations within the context of implementing its 5-Year Strategic Plan.

Regarding permitting recommendations, the report noted that BSEE has closed four of the seven
permitting recommendations from the FY20 10 report, "A New Horizon Looking to the Future of
the Bureau of Ocean Energy Management, Regulation and Enforcement." BSEE has also made
progress on the three remaining recommendations and plans to close recommendations 6 and 7
by the end ofFY2014. An extension request was recently approved by Interior's Office of
Financial Management for recommendation 3. As explained in the Attachments, the extension
was granted to allow BSEE to change its approach to reviewing and updating policies to one that
is more comprehensive and robust.

As shown in Attachment 1, our review of the draft report indicates that some areas require
additional information or need updated information in order to provide a complete and
comprehensive assessment of the progress made to date in addressing various recommendations.
In some places, the OIG draws conclusions, but does not cite the evidence or data underlying the
findings. We also believe there are shortcomings in the OIG's description of its methodology for
obtaining and assessing evidence to suppoti report conclusions and fmdings. Without fully being
able to understand the basis upon which the OIG made its findings and developed its
recommendations, BSEE's efforts to continue to improve its program will be hampered.


                                                                                               25
Regarding the report's ten recommendations, as noted, we generally concur with the spirit and
intent of the recommendations. In Attachment 2, we suggest changes to ensure that all
recommendations are reasonably achievable and enhance the permitting program. Target dates
and responsible officials for implementing the recommendations are also shown in Attachment 2.

BSEE would like to thank the OIG for the opportunity to review the draft report on offshore oil
and gas permitting to ensure that the report is balanced and accurate, and that it contains
recommendations that are both meaningful and achievable.

If you have any questions concerning this response, please contact Linh Luu, Audit Liaison
Officer, at 202.208.4120.

Attachments

cc: Nancy Thomas, Office of Financial Management




                                                                                             26
Appendix 4: Status of
Recommendations
 Recommendation             Status               Action Required

                                                 This recommendation
                                                 will be referred to the
                                                Assistant Secretary for
                      Unresolved and not
         1                                      Policy, Management and
                        implemented            Budget for resolution and
                                                       tracking of
                                                    implementation.


                                               These recommendations
                                                will be referred to the
                       Resolved but not         Assistant Secretary for
   2, 3, 4, and 6
                         implemented           Policy, Management and
                                                Budget for tracking of
                                                    implementation.


                                               These recommendations
                                                will be referred to the
                      Resolved but not fully    Assistant Secretary for
    5, 8, and 9
                          implemented          Policy, Management and
                                                Budget for tracking of
                                                    implementation.


                                                 No further action is
         7          Resolved and implemented
                                                      required.




                                                                          27
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
